APPENDIX TABLE OF CONTENTS
Memorandum Opinion of the Ninth Circuit
(April 30, 2019) ................................................... 1a
Judgment After Trial
(November 15, 2017) .......................................... 5a
Redacted Verdict Form
(November 7, 2017) ............................................ 8a
Docket Entry 198: Court Order Denying Proposed
Jury Instruction No. 64
(October 27, 2017) ............................................ 10a
Civil Minute Order of the District Court of
California on Motion in Limine
(October 3, 2017) ..........................................11a
Bench Ruling on Motion in Limine,
Transcript of Proceedings—Relevant Excerpt
(October 23, 2017) ............................................ 20a
Relevant Statutory Provision:
California Labor Code § 226 ............................ 22a
Transcript of Jury Instructions—Relevant Excerpts
(November 7, 2017) .......................................... 29a

App.1a
MEMORANDUM OPINION OF
THE NINTH CIRCUIT
(APRIL 30, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
FRANCISCA GUILLEN, an Individual, on Behalf of
Herself and All Others Similarly Situated,

Plaintiff-Appellant,
v.
DOLLAR TREE STORES, INC.,
a Virginia Corporation; DOES, 1-100, Inclusive,

Defendants-Appellees.

________________________
No. 17-56779

D.C. No. 2:15-cv-03813-MWF-PJW
Appeal from the United States District Court
for the Central District of California
Michael W. Fitzgerald, District Judge, Presiding
Submitted April 8, 2019
Pasadena, California

 This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
 The panel unanimously concludes this case is suitable for decision without oral argument. See Fed. R. App. P. 34(a)(2).

App.2a
Before: GRABER and BYBEE, Circuit Judges.,
and ARTERTON, District Judge.
Plaintiff-Appellant Francisca Guillen brought this
class action against her employer, Defendant-Appellee
Dollar Tree Stores, Inc., claiming violations of
California’s statutory requirement that employers
provide wage statements to their employees. At trial,
the jury returned a verdict for Dollar Tree. Guillen
challenges the district court’s refusal to give her
requested jury instruction, refusal to permit evidence
of other employers’ wage statement practices, and
refusal to permit amendment of her complaint. We
have jurisdiction pursuant to 28 U.S.C. § 1291, and we
affirm.
1. We review a district court’s formulation of
civil jury instructions for abuse of discretion, Dang
v. Cross, 422 F.3d 800, 804 (9th Cir. 2005), but we
review de novo whether an instruction states the law
correctly, Clem v. Lomeli, 566 F.3d 1177, 1180–81 (9th
Cir. 2009). Because Guillen’s requested instruction
lacked legal basis, the district court did not abuse its
discretion. Peralta v. Dillard, 744 F.3d 1076, 1082 (9th
Cir. 2014). Section 226(a) of the California Labor Code
establishes requirements for employers furnishing
and retaining copies of wage statements, but imposes
no requirement governing how employees may access
retained copies of past wage statements. See Cal. Lab.
Code § 226(a). Those requirements are contained in
separate provisions in section 226(b) and (c), violations of which were not claimed in this case. The 2006
 The Honorable Janet Bond Arterton, United States District
Judge for the District of Connecticut, sitting by designation.

App.3a
Opinion Letter issued by California’s Division of Labor
Standards Enforcement, on which Guillen relies,
similarly makes clear that section 226(a) imposes no
such requirement on employers. See Cal. Office of the
State Labor Comm’r, Div. of Labor Standards Enf’t,
Dep’t of Indus. Relations, Opinion Letter on Electronic
Itemized Wage Statements (July 6, 2006) (after discussion of what section 226(a) requires, noting that
“[a]dditionally . . . the record keeping requirements of
Labor Code section 226 and 1174 must be adhered to
and the pay records must be retained by the employer
for a period of at least three years and be accessible by
employees and former employees.” (emphasis added)).
2. Guillen also challenges the district court’s preclusion of evidence of the methods used by similar
employers to deliver wage statements to their employees.
“A district court’s evidentiary rulings are . . . reviewed
for abuse of discretion, and the appellant is additionally required to establish that the error was prejudicial.” Tritchler v. County of Lake, 358 F.3d 1150, 1155
(9th Cir. 2004). The district court excluded this evidence
at trial under Federal Rule of Evidence 403, ruling
that the “legal standard isn’t that the company has to
do the best method,” “[i]t just has to have a sufficient
method,” and reasoning that the jury might wrongly
infer from the comparison evidence that the applicable
legal standard was “best practices.” There is no legal
authority requiring Dollar Tree to make its wage
statements as accessible as similar businesses do, and
the concern of the district court regarding jury confusion
was well-founded. The district court’s exclusion of that
evidence thus was not an abuse of discretion.
3. Finally, Guillen argues that the district court
abused its discretion by denying her leave to amend

App.4a
the complaint to allow her to be substituted as class
representative for the claimed violation of California’s
Private Attorney General Act (“PAGA”). “We review
for abuse of discretion the district court’s denial of a
motion to amend a complaint.” Ventress v. Japan
Airlines, 603 F.3d 676, 680 (9th Cir. 2010). When the
court-ordered deadline to amend has passed, motions
for leave to amend are analyzed under the good cause
standard of Federal Rule of Civil Procedure 16.
Coleman v. Quaker Oats Co., 232 F.3d 1271, 1294 (9th
Cir. 2000). The court-ordered deadline to add parties
or amend pleadings was December 14, 2015. Guillen
did not initiate her PAGA pre-filing administrative
notice requirement until October 26, 2016, and did not
seek leave to file her Third Amended Complaint until
February 2017. Guillen contends that she could not
seek this amendment until she had complied with
PAGA’s notice requirement but offers no explanation
as to why she delayed fulfilling that requirement for
almost a year after the deadline to add parties or
amend pleadings. Given the passage of time and
absence of any good cause explanation from Guillen
for the delay, the district court did not abuse its discretion by denying leave to amend.
AFFIRMED.

App.5a
JUDGMENT AFTER TRIAL
(NOVEMBER 15, 2017)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________________
FRANCISCA GUILLEN, an Individual, on Behalf of
Herself and All Others Similarly Situated,

Plaintiffs,
v.
DOLLAR TREE STORES, INC.,
a Virginia Corporation,

Defendant.

________________________

Case No.: CV-15-3813-MWF (PJWx)
Before: The Hon. Michael W. FITZGERALD,
United States District Judge.
This action came on regularly for jury trial between
November 2, 2017, and November 7, 2017, in Courtroom
5A of this United States District Court. Plaintiffs were
Francisca Guillen, on behalf of herself and a certified
Class of all others similarly situated. Plaintiffs were
represented by Matthew J. Matern, Esq., Mikael H.
Stahle, Esq., and Joshua D. Boxer, Esq., of Matern
Law Group, PC. Defendant Dollar Tree Stores, Inc.
was represented by Lindbergh Porter, Esq., of Littler
Mendelson, P.C., and Elena R. Baca, Esq., and Ryan
D. Derry, Esq., of Paul Hastings LLP.

App.6a
A jury of eight persons was regularly empaneled
and sworn. One juror was excused with the consent of
the parties. Witnesses were sworn and testified and
exhibits were admitted into evidence. After hearing
the evidence and arguments of counsel, seven members
of the jury were duly instructed by the Court and the
cause was submitted to the jury. The jury deliberated
and thereafter returned a special verdict as follows:
Question 1
Did Francisca Guillen and the Class not retain
easy access to their electronic wage statements?
NO
If you answered “YES” to Question 1, please proceed to Question 2. If you answered “NO” to
Question 1, please [have your foreperson sign and
return the verdict form].
Now, therefore, pursuant to Rules 54 and 58 of
the Federal Rules of Civil Procedure, IT IS HEREBY
ORDERED, ADJUDGED AND DECREED that final
judgment in this action be entered as follows:
1.

As to the Claim for Relief for violation of
California Labor Code section 226, judgment
is entered in favor of Defendant Dollar Tree
Stores, Inc., and against Plaintiff Francisca
Guillen and each member of the Class.

2.

Plaintiff Francisca Guillen and the Class shall
take nothing on their claim by their Complaint.

3.

Pursuant to Federal Rule of Civil Procedure
23(c)(3)(B), the Court hereby describes the
members of the Class to whom the Federal

App.7a
Rule of Civil Procedure 23(c)(2) notice was directed and who did not request exclusion.
The Class as certified is defined as:
“All persons employed in one or more of
Dollar Tree’s retail stores in California at
any time on or after April 2, 2014, who
received their wages via direct deposit or
Pay Card and who have not entered into
an arbitration agreement with Dollar
Tree.”
Excluded from this definition are all Class
Members who requested exclusion and the
portions of certain Class Members’ claims
that were released by the settlement in Stafford v. Dollar Tree Stores, Solano County
Superior Court Case No. FCS043461.
4.

As the prevailing party, Defendant Dollar
Tree Stores, Inc. is to recover from Plaintiff
Francisca Guillen its costs of suit as provided
by law.

5.

Now that the matter has been tried to conclusion, the website established to provide
notice (www.DTclassaction.com) should be
removed from the Internet within 7 days.
/s/ Michael W. Fitzgerald
United States District Judge

Dated: November 15, 2017.

App.8a
REDACTED VERDICT FORM
(NOVEMBER 7, 2017)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________________
FRANCISCA GUILLEN, an Individual, on Behalf of
Herself and All Others Similarly Situated,

Plaintiffs,
v.
DOLLAR TREE STORES, INC.,
a Virginia Corporation,

Defendant.

________________________

Case No.: CV-15-3813-MWF (PJWx)
Before: The Hon. Michael W. FITZGERALD,
United States District Judge.
We, the jury in the above-captioned case, answer
the questions submitted to us as follows
1. Did Francisca Guillen and the Class not retain
easy access to their electronic wage statements?


NO

If you answered “YES” to Question 1, please proceed
to Question 2. If you answered “NO” to Question 1,
please proceed to the end of this form and sign and
date it.

App.9a
2. Was Dollar Tree’s failure to provide easy
access to electronic wage statements knowing and
intentional?
_____ YES _____ NO
If you answered “YES” to Question 2, please proceed
to Question 3. If you answered “NO” to Question 2,
please proceed to the end of this form and sign and
date it.
3. Did Francisca Guillen and each Class Member
suffer a resulting injury?
_____ YES _____ NO
If you answered “YES” to Question 3, please proceed
to Question 4 on the next page. I) you answered “NO”
to Question 3, please proceed to the end of this form
and sign and date it.
4. How many times between April 2, 2014, and
August 31, 2017, did Dollar Tree violate California
law with respect to the provision of wage statements
to members of the Class?
_____
Please have the Foreperson sign and date this
verdict form. Please notify the clerk through the bailiff
that you have reached a verdict.
Signed /s/ {Redacted}
Foreperson
Dated: November 7, 2017.

App.10a
DOCKET ENTRY 198: COURT ORDER DENYING
PROPOSED JURY INSTRUCTION NO. 64
(OCTOBER 27, 2017)
10/27/2017
198 ORDER by Judge Michael W. Fitzgerald. For the
guidance of counsel in preparing for trial: It is the
intention of the Court not to include the lack of 3
years of electronic statements at the register as a
basis for liability. This putative basis for violating
section 226(a) will not be included in the Final
Pretrial Order. The Court will not give Proposed
Jury Instruction No. 64 to the jury. It is not that
this putative basis would violate due process,
amend the pleadings, or is beyond the scope of
notice to the class. Rather, section 226(a), even as
construed by the 2006 DSLE Letter, simply does
not, as a matter of law, impose that requirement
on employers. THERE IS NO PDF DOCUMENT ASSOCIATED WITH THIS ENTRY. (cw) TEXT ONLY ENTRY
(Entered: 10/27/2017)

App.11a
CIVIL MINUTE ORDER OF THE DISTRICT
COURT OF CALIFORNIA ON MOTION IN LIMINE
(OCTOBER 3, 2017)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________________
CURTIS PATTON
v.
DOLLAR TREE STORES, INC.
________________________
Case No. CV-15-3813-MWF
Civil Minutes–General
Before: The Hon. Michael W. FITZGERALD,
United States District Judge.
Proceedings (In Chambers):
Order Re: Motions in Limine
[133] [134] [135] [136] [137]
Before the Court are five Motions in Limine filed
by Defendant Dollar Tree Stores, Inc. (Docket Nos.
133-137). The Court held a hearing on October 3, 2017.
The Court rules as follows:


Motion in Limine #1 is DENIED as unnecessary. The DLSE Opinion Letters pertain to
legal standards, not evidence of factual matters
to be excluded or admitted at trial.

App.12a


Motion in Limine #2 is GRANTED insofar as
Plaintiff and Mr. Lietzow may not testify to
other employers’ wage statement programs
and no evidence of the prevalence of direct
deposit may be introduced. However, the Court
declines to decide at this time whether Mr.
Maravilla and Ms. Sullivan may testify, as it
hopes the parties will come to an agreement
regarding their testimony in the course of
discussing an overall deal regarding their
witness lists. If they should testify, the Court
will separately decide if any testimony they
might provide regarding other employers’ wage
statement programs is admissible.



Motion in Limine #3 is GRANTED. Plaintiff
does not oppose the Motion. Evidence of
Defendant’s size and financial resources (and
those of its counsel) is excluded as irrelevant
and prejudicial.



Motion in Limine #4 is DENIED. Evidence of
potential costs or cost savings associated with
implementation of the electronic pay program
is relevant.



Motion in Limine #5 is DENIED without prejudice. The Court agrees with the spirit of the
Motion, that opening statements must be
different from closing arguments. The precise
use of the words “easily accessible”, however,
will be determined by the instructions that the
Court will read to the jury at the beginning of
the trial and before the opening statements.

The Court further orders the parties to meet-andconfer to try to reach agreement on outstanding disputes

App.13a
regarding the exhibit and witness lists, and to try to
submit a Joint Report regarding the status of those
disputes by October 16, 2017. The remaining disputes
will be decided at the continued Pretrial Conference.
I.

Motion in Limine #1 to Exclude Testimony,
Evidence, Comment or Argument Regarding the
Opinion Letters Issued by the Division of Labor
Standards Enforcement; or, in the Alternative, to
Allow the Testimony of Robert A. Jones

Through its first Motion in Limine, Defendant
requests, pursuant to Federal Rules of Evidence 801,
402, and 403, that the Court exclude testimony,
comment, or argument regarding a July 6, 2006
Division of Labor Standards Enforcement (“DLSE”)
Opinion Letter authored by Robert A. Jones, as well
as two other withdrawn DLSE opinion letters. (Mot.
#1 at 1). In the alternative, Defendant In the alternative, Defendant requests that if the Court allows the
2006 DLSE letter, it also allow Robert A. Jones to
testify at trial even though Defendant did not include
Mr. Jones in its Rule 26 disclosures until August 22,
2017. (Id. at 2). Defendants argue that the letters are
inadmissible hearsay, irrelevant, and prejudicial. (Id.
at 1). Plaintiff argue only that the Motion should be
rejected as “an attempt to argue the law governing
wage statements, rather than a request to exclude evidence of factual matters,” and that a “motion in limine
is not the proper place to hold that debate.” (Opposition to Motion in Limine re: Opinion Letters and
Robert Jones (“Opposition #1”) at 2 (Docket No. 149)).
The Court agrees with Plaintiff. In the Court’s prior
Orders denying summary judgment, the Court applied
the 2006 DLSE Opinion Letter’s conditions on the use

App.14a
of electronic wage statements in considering Plaintiffs
claims. (See “Order re Motion for Summary Judgement
(“Order 1”) at 5-8 (Docket No. 104); Order Denying
Motion for Judgment on the Pleadings (Docket No.
129)). The Court views the 2006 DLSE Opinion Letter
as both the only California authority that explicitly
authorizes the use of electronic wage statements, and
as a helpful interpretation (in an area with sparse
authority) of how those electronic wage statements
can be used. The Court does not anticipate the DLSE
Letters being presented to the jury—indeed, it does
not know what a jury would do with the letters—and
therefore sees no need for an order excluding testimony,
comment, or argument related to the letters, or
permitting testimony from Mr. Jones on the letters.
Rather, the Opinion Letter as authority will be
reflected in the jury instructions.
Defendant’s Motion in Limine #1 is DENIED as
unnecessary.
II.

Motion in Limine #2 to Exclude Evidence and
Argument Related to Other Employers’ Wage
Statement Programs and Statistics Related to
Mobile Banking and Direct Deposit and to Exclude
Undisclosed Witnesses

Through its second Motion in Limine, Defendant
requests that, pursuant to Rules 602, 402, and 403,
the Court exclude all testimony and evidence of other
employers’ wage statement programs as well as statistics
related to the prevalence of mobile banking and direct
deposit. (Mot. #2 at 1). Defendant also requests the
Court exclude witnesses Julie Sullivan and Armando
Maravilla, who were not disclosed pursuant to Rule

App.15a
26. (Id.). Defendant argues that Plaintiff failed to disclose any witness qualified to testify to other employers’
wage statement programs or the prevalence of online
banking and direct deposit. (Id. at 2). Ms. Sullivan and
Mr. Maravilla, Defendant argues, were disclosed too
late to testify at all, including as to their experiences
with their employers’ pay systems. (Id. at 3). Defendant argues that regardless of Plaintiffs disclosures,
any evidence related to these matters is irrelevant and
prejudicial. (Id. at 4-6).
Plaintiff responds that this evidence is relevant
to the factfinder’s determination of whether Defendant’s conduct is reasonable, and that Defendant was
on notice of Ms. Sullivan and Mr. Maravilla’s potential
testimony since well before the discovery cutoff date
because they provided declarations in support of
Plaintiffs Opposition to Summary Judgment. (Opposition to Motion in Limine (“Opposition #2”) at 2-3 (Docket
No. 150)).
The Court is persuaded that, to some extent,
testimony regarding other employers’ wage statement
programs would be relevant to the issue of whether
reasonable Dollar Tree employees who had personal
experience working for other employers found Dollar
Tree’s wage statement program to be “easily accessible.”
However, as Defendant points out, there are several
obstacles to introducing this evidence: (1) Plaintiff has
no basis from which to testify to other employers’ programs because she worked for Dollar Tree during the
operative time; (2) Plaintiffs expert, Eric R. Lietzow,
never disclosed opinions on other employers’ programs
and may not be qualified to do so, and therefore may
not testify to them; and (3) Julie Sullivan and Armando
Maravilla were not properly disclosed to Defendant.

App.16a
The same obstacles are present with respect to evidence of statistics on the prevalence of direct deposits.
At the hearing, the parties explained that a
dispute has arisen as to whether each side has timely
disclosed witnesses, including whether Plaintiff timely
disclosed Ms. Sullivan and Mr. Maravilla. The Court
has instructed the parties to meet and confer in
attempts to resolve the dispute prior to the continued
Pretrial Conference Hearing, and the Court hopes the
parties will reach an agreement between themselves.
Therefore, the Court declines to rule at this time
regarding whether Ms. Sullivan and Mr. Maravilla
were timely disclosed. If Ms. Sullivan and Mr. Maravilla
do testify, the relevance of any testimony they may
offer on other employers’ wage statement programs
will be determined at a later time. The Court now
understands that neither Ms. Sullivan nor Mr. Maravilla
was ever employed by Dollar Tree.
Therefore, Defendant’s Motion in Limine #2 is
GRANTED in part. It is GRANTED insofar as Plaintiff and Mr. Lietzow may not testify to other employers’
wage statement programs and no evidence of the
prevalence of direct deposit may be introduced.
III. Motion in Limine #3 to Exclude Testimony, Evidence, Comment or Argument Regarding the Size
and Resources of Dollar Tree and Its Counsel
Through its third Motion in Limine, Defendant
seeks, pursuant to Rules 404, 402, and 403, evidence
and argument relating to Dollar Tree’s size and
financial resources (and the size and resources of its
counsel). (Mot. #3 at 1). Defendant argues such evidence is impermissible “character-like” evidence barred

App.17a
by Rule 404(a), and that it is irrelevant and prejudicial. (Id. at 1-3). Plaintiff does not oppose this motion.
The Court agrees that evidence regarding Defendant’s size and financial resources (or those of its
counsel) is irrelevant to the question of whether
Defendant has met its obligations with respect to
furnishing wage statement information, and that any
potential probative value would be outweighed by its
prejudicial effect. Moreover, Plaintiff does not oppose
this Motion. Accordingly, Defendant’s Motion in Limine
#3 is GRANTED.
IV. Motion in Limine #4 to Exclude Testimony, Evidence, Comment or Argument Regarding Costs or
Savings Associated with Dollar Tree’s Implementation of Electronic Pay
Through its fourth Motion in Limine, Defendant
requests that, pursuant to Rules 402 and 403, the
Court exclude evidence of Defendant’s alleged cost
savings related to shifting to an electronic pay program.
Defendant argues that this evidence is irrelevant
because implementation of an electronic pay program
and implementation of an electronic wage statement
program are two different things, and that any alleged
cost savings are irrelevant to the claims at issue. (Mot.
#4 at 2). Defendant also argues that such evidence will
be misleading and prejudicial. (Id. at 3). At the hearing, Defendant emphasized that no evidence on this
issue has yet been elicited.
Plaintiff opposes the Motion, arguing that evidence of cost savings associated with implementation
of direct deposit is relevant to the claim that Defendant precludes class members from electing to continue
to receive hard-copy wage statements, as is required

App.18a
by law. (Opposition to Motion in Limine re: Costs or
Savings Associated with Implementation of Electronic
Pay (“Opposition #4”) at 1-2 (Docket No. 151)).
The Court finds that evidence of any costs or cost
savings related to implementation of the electronic
pay program is relevant. As Plaintiff explains, once an
employee elects direct deposit, he or she loses the option
to receive traditional hard-copy wage statements. To
the extent cost savings might potentially motivate
Defendant to encourage employees to opt for the
electronic pay program and therefore lose the right to
receive hard-copy wage statements, evidence of those
costs or cost savings is relevant.
As the Court explained at the hearing, the Court
does not perceive why this evidence would be unduly
prejudicial. To the extent the evidence on this issue
turns out to be sparse or undeveloped, it is for the jury
to decide how much weight to assign to it.
Accordingly, Defendant’s Motion in Limine #4 is
DENIED.
V.

Motion in Limine #5 to Exclude Comment or Argument During Opening Statement of Legal Matters,
Particularly “Easily Accessible”

Through its fifth Motion in Limine, Defendant
requests that this Court exclude comment or argument during opening statements of legal matters, particularly any arguments echoing the “easily accessible”
language contained in the 2006 DLSE Opinion Letter.
(Mot. #5 at 1).
Defendant argues that opening statements are
strictly for outlining the factual issues and evidence in
the case, not for setting for the applicable law. (Id.).

App.19a
Plaintiff opposes the Motion, arguing that the question
of whether a reasonable employee has “easy access” to
his or her wage statement information is one of fact,
and that Plaintiff will present evidence in this regard.
(Opposition to Motion in Limine re: Comment or Argument During Opening Statement Regarding “Easily
Accessible” (“Opposition #5”) at 2-3 (Docket No. 152)).
The Opposition does not reference opening statements
at all, and in fact is comprised of nearly verbatim language from Plaintiffs Opposition #2.
The Court agrees with Defendant that opening
statements are strictly for outlining facts and evidence
to be presented at trial. And, as discussed above, the
2006 DLSE Opinion Letter provides legal guidance on
providing electronic wage statements. However, the
Court intends to pre-instruct the jury on the elements
of the claim(s). Some slight reference to being “easily
accessible” will probably be permitted, just as a plaintiff in a Fourth Amendment case would be allowed to
state once or twice in opening statement that the use
of force was not reasonable. Defendant is correct, however, that there must be a difference between the
opening statements and closing arguments.
Accordingly, Motion in Limine #5 is DENIED
without prejudice.

App.20a
BENCH RULING ON MOTION IN LIMINE,
TRANSCRIPT OF PROCEEDINGS
RELEVANT EXCERPT
(OCTOBER 23, 2017)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
________________________
CURTIS PATTON, ET AL.,

Plaintiffs,
v.
DOLLAR TREE STORES, INC.,

Defendants.

________________________
No. CV-15-3813 (PJWx)

Before: Hon. Michael W. FITZGERALD,
United States District Judge.

[October 23, 2017 Transcript, p. 20]
THE COURT: The exhibits, I’m glad you’ve made some
headway on that. That is something that we can
discuss later, especially if some broader issues
might resolve that one way or the other.
In regard to the witnesses, Robert Jones is not
going to testify. In fact, I cannot think of any
witness who I have had proffered in my time on
the bench that I would be less likely to allow to

App.21a
testify, and to have argument about this would
just waste everybody’s time. He’s-it’s a legal matter.
And to the extent that the jury instructions should
read thus and so, then I don’t even know if then
it would be appropriate, but at least Dollar Tree
can try, but it’s certainly not going to get such
that testimony in front of the jury. I might as well
just take a copy of the Constitution and rip the
Seventh Amendment right out of it as let him
testify.
Let’s talk about Mr. Lietzow. To the extent that
there is a timeliness issue, as I intend to try to be
consistent here and overlook that, I think that
given he will testify and he can testify to anything
on which he has been deposed, the real issue here
is whether there is this new issue of liability, and
I’ll discuss that separately.
Mr. Maravilla should not testify. That is not because
of timeliness issues, but rather I think that his
testimony, while it may or may not be admissible
under 401 and 402, it is certainly inadmissible
under 403 and 404(b). You know, it isn’t so much
here, the jury is going to have defined for it what
accessible is, and it’s up to them to then decide
whether it’s-that what Dollar Tree did meets that
standard. There is a certain risk that the jury
could feel that what is best practices or not is
really what is governing here, and the fact that
somebody else chose to do something in a certain
way in and of itself is not particularly helpful on
whether the legal standard that does apply was
met in this case consistently to employees who
form the class.

App.22a
RELEVANT STATUTORY PROVISIONS
California Labor Code § 226.
Itemized Statements; Contents; Inspection and Copying of Records; Compliance with Inspection Requests;
Violations; Injunctive Relief; Limitation of Application and Liability; Exception to Showing Total
Hours Worked
(a) An employer, semimonthly or at the time of
each payment of wages, shall furnish to his or her
employee, either as a detachable part of the check,
draft, or voucher paying the employee’s wages, or
separately if wages are paid by personal check or cash,
an accurate itemized statement in writing showing (1)
gross wages earned, (2) total hours worked by the
employee, except as provided in subdivision (j), (3) the
number of piece-rate units earned and any applicable
piece rate if the employee is paid on a piece-rate basis,
(4) all deductions, provided that all deductions made
on written orders of the employee may be aggregated
and shown as one item, (5) net wages earned, (6) the
inclusive dates of the period for which the employee is
paid, (7) the name of the employee and only the last
four digits of his or her social security number or an
employee identification number other than a social
security number, (8) the name and address of the legal
entity that is the employer and, if the employer is a
farm labor contractor, as defined in subdivision (b) of
Section 1682, the name and address of the legal entity
that secured the services of the employer, and (9) all
applicable hourly rates in effect during the pay period
and the corresponding number of hours worked at
each hourly rate by the employee and, beginning July
1, 2013, if the employer is a temporary services

App.23a
employer as defined in Section 201.3, the rate of pay
and the total hours worked for each temporary services
assignment. The deductions made from payment of
wages shall be recorded in ink or other indelible form,
properly dated, showing the month, day, and year, and
a copy of the statement and the record of the deductions
shall be kept on file by the employer for at least three
years at the place of employment or at a central
location within the State of California. For purposes
of this subdivision, “copy” includes a duplicate of the
itemized statement provided to an employee or a
computer-generated record that accurately shows all
of the information required by this subdivision.
(b) An employer that is required by this code or
any regulation adopted pursuant to this code to keep
the information required by subdivision (a) shall
afford current and former employees the right to
inspect or receive a copy of records pertaining to their
employment, upon reasonable request to the employer.
The employer may take reasonable steps to ensure the
identity of a current or former employee. If the
employer provides copies of the records, the actual cost
of reproduction may be charged to the current or
former employee.
(c) An employer who receives a written or oral
request to inspect or receive a copy of records pursuant to subdivision (b) pertaining to a current or former
employee shall comply with the request as soon as
practicable, but no later than 21 calendar days from
the date of the request. A violation of this subdivision
is an infraction. Impossibility of performance, not
caused by or a result of a violation of law, shall be an
affirmative defense for an employer in any action
alleging a violation of this subdivision. An employer

App.24a
may designate the person to whom a request under
this subdivision will be made.
(d) This section does not apply to any employer
of a person employed by the owner or occupant of a
residential dwelling whose duties are incidental to the
ownership, maintenance, or use of the dwelling,
including the care and supervision of children, or
whose duties are personal and not in the course of the
trade, business, profession, or occupation of the owner
or occupant.
(e)
(1) An employee suffering injury as a result of a
knowing and intentional failure by an employer
to comply with subdivision (a) is entitled to
recover the greater of all actual damages or fifty
dollars ($50) for the initial pay period in which a
violation occurs and one hundred dollars ($100)
per employee for each violation in a subsequent
pay period, not to exceed an aggregate penalty of
four thousand dollars ($4,000), and is entitled to
an award of costs and reasonable attorney’s fees.
(2)
(A) An employee is deemed to suffer injury for
purposes of this subdivision if the employer
fails to provide a wage statement.
(B) An employee is deemed to suffer injury for
purposes of this subdivision if the employer
fails to provide accurate and complete information as required by any one or more of
items (1) to (9), inclusive, of subdivision (a)
and the employee cannot promptly and easily

App.25a
determine from the wage statement alone
one or more of the following:
(i)

The amount of the gross wages or net
wages paid to the employee during the
pay period or any of the other information required to be provided on the
itemized wage statement pursuant to
items (2) to (4), inclusive, (6), and (9) of
subdivision (a).

(ii) Which deductions the employer made
from gross wages to determine the net
wages paid to the employee during the
pay period. Nothing in this subdivision
alters the ability of the employer to
aggregate deductions consistent with the
requirements of item (4) of subdivision
(a).
(iii) The name and address of the employer
and, if the employer is a farm labor contractor, as defined in subdivision (b) of
Section 1682, the name and address of
the legal entity that secured the services
of the employer during the pay period.
(iv) The name of the employee and only the
last four digits of his or her social security number or an employee identification number other than a social security
number.
(C) For purposes of this paragraph, “promptly
and easily determine” means a reasonable
person would be able to readily ascertain the
information without reference to other documents or information.

App.26a
(3) For purposes of this subdivision, a “knowing
and intentional failure” does not include an
isolated and unintentional payroll error due to a
clerical or inadvertent mistake. In reviewing for
compliance with this section, the factfinder may
consider as a relevant factor whether the employer,
prior to an alleged violation, has adopted and is
in compliance with a set of policies, procedures,
and practices that fully comply with this section.
(f) A failure by an employer to permit a current
or former employee to inspect or receive a copy of
records within the time set forth in subdivision (c)
entitles the current or former employee or the Labor
Commissioner to recover a seven-hundred-fifty-dollar
($750) penalty from the employer.
(g) The listing by an employer of the name and
address of the legal entity that secured the services of
the employer in the itemized statement required by
subdivision (a) shall not create any liability on the
part of that legal entity.
(h) An employee may also bring an action for
injunctive relief to ensure compliance with this section,
and is entitled to an award of costs and reasonable
attorney’s fees.
(i) This section does not apply to the state, to any
city, county, city and county, district, or to any other
governmental entity, except that if the state or a city,
county, city and county, district, or other governmental entity furnishes its employees with a check,
draft, or voucher paying the employee’s wages, the
state or a city, county, city and county, district, or
other governmental entity shall use no more than the
last four digits of the employee’s social security

App.27a
number or shall use an employee identification number
other than the social security number on the itemized
statement provided with the check, draft, or voucher.
(j) An itemized wage statement furnished by an
employer pursuant to subdivision (a) shall not be
required to show total hours worked by the employee
if any of the following apply:
(1) The employee’s compensation is solely based
on salary and the employee is exempt from
payment of overtime under subdivision (a) of
Section 515 or any applicable order of the
Industrial Welfare Commission.
(2) The employee is exempt from the payment of
minimum wage and overtime under any of the
following:
(A) The exemption for persons employed in an
executive, administrative, or professional
capacity provided in any applicable order of
the Industrial Welfare Commission.
(B) The exemption for outside salespersons provided in any applicable order of the Industrial
Welfare Commission.
(C) The overtime exemption for computer software
professionals paid on a salaried basis provided in Section 515.5.
(D) The exemption for individuals who are the
parent, spouse, child, or legally adopted child
of the employer provided in any applicable
order of the Industrial Welfare Commission.
(E) The exemption for participants, director, and
staff of a live-in alternative to incarceration

App.28a
rehabilitation program with special focus on
substance abusers provided in Section 8002
of the Penal Code.
(F) The exemption for any crew member employed
on a commercial passenger fishing boat
licensed pursuant to Article 5 (commencing
with Section 7920) of Chapter 1 of Part 3 of
Division 6 of the Fish and Game Code provided in any applicable order of the Industrial
Welfare Commission.
(G) The exemption for any individual participating in a national service program provided in any
applicable order of the Industrial Welfare Commission.

App.29a
TRANSCRIPT OF JURY INSTRUCTIONS
RELEVANT EXCERPTS
(NOVEMBER 7, 2017)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
________________________
CURTIS PATTON, an Individual, on Behalf of
Himself and All Others Similarly Situated;
FRANCISCA GUILLEN, an Individual, on Behalf of
Herself and All Others Similarly Situated,

Plaintiffs,
v.
DOLLAR TREE STORES, INC.,
a Virginia Corporation;
and DOES 1 through 100, Inclusive,

Defendants.

________________________

No. 2:15-cv-03813-MWF-PJW
Before: Hon. Michael W. FITZGERALD,
United States District Judge.

[November 7, 2017 Transcript, p. 563]
MS. BACA: Good morning, Your Honor, Elena Baca
for Dollar Tree Stores.
THE COURT: All seven of you are here. I will now
instruct you on the law.

App.30a
Instruction number 1, the duties of the jury:
Members of the jury, now that you have heard all
of the evidence, it is my duty to instruct you as to
the law of the case. A copy of these instructions
for each of you will be sent with you to the jury
room when you deliberate.
You must not infer from these instructions or from
anything I may say or do as indicating that I have
an opinion regarding the evidence or what your
verdict should be. It is your duty to find the facts
from all the evidence in the case. To those facts
you will apply the law as I give it to you. You must
follow the law as I give it to you, whether you
agree with the law or not.
And you must not be influenced by any personal
likes or dislikes, opinions, prejudices, or sympathy.
That means that you must decide the case solely
on the evidence before you. You will recall that
you took an oath to do so.
In following my instructions, you must follow all
of them and not single out some and ignore
others. They are all important.
Instruction number 2, the claims: Plaintiff Francisca Guillen brings this lawsuit against defendant Dollar Tree Stores Incorporated, which will
afterwards be referred to as “Dollar Tree,” and I
will refer to the plaintiffs as “Francisca Guillen
and the class.” She brings this lawsuit on behalf
of herself and on behalf of a class of the other—of
other Dollar Tree store employees, which we have
referred to as “the class.”
California law requires that employees get a wage
statement or pay stub. Employees can be paid by

App.31a
direct deposit instead of receiving a paper check
and wage statement if certain requirements are
met. Francisca Guillen, as the plaintiff, contends
that Dollar Tree, as the defendant, knowingly
and intentionally failed to comply with the
requirements of California law regarding the
provision of wage statements to Francisca Guillen
and the class. Francisca Guillen has the burden
of proving this claim. She seeks to prove multiple
violations for herself and the class from Dollar
Tree.
Dollar Tree denies this claim. Dollar Tree contends
that at all times it complied with California law
regarding the provision of wage statements.
Dollar Tree further denies that Francisca Guillen
and the class have suffered any injury from any
alleged violations. Dollar Tree further denies that
Francisca Guillen and the class can prove multiple violations.
Instruction number 3, the burden of proof which
is the preponderance of the evidence: Francisca
Guillen and the class have the burden of proof on
their claims. The burden of proof in this case is by
a preponderance of the evidence. When the party
has the burden of proof on a claim by a preponderance of the evidence, it means you must be
persuaded by the evidence that the claim is more
probably true than not true. You should base your
decision on all of the evidence regardless of which
party presented it.
Instruction number 4, what is evidence: The evidence you are to consider in deciding what the
facts are consists of, one, the sworn testimony of

App.32a
any witness, and, two, the exhibits that are admitted into evidence.
Instruction number 5, what is not evidence: In
reaching your verdict, you may consider only the
testimony and exhibits received into evidence.
Certain things are not evidence, and you may not
consider them in deciding what the facts are. I
will list them for you. I will now list four things.
One, arguments and statements by lawyers are not
evidence. The lawyers are not witnesses. What
they have said in their opening statements,
closing arguments, and at other times is intended
to help you interpret the evidence, but it is not
evidence. If the facts as you remember them differ
from the way the lawyers have stated them, your
memory of them controls.
Two, questions and objections by lawyers are not
evidence. Attorneys have a duty to their clients to
object when they believe a question is improper
under the Rules of Evidence. You should not be
influenced by the objection or by the Court’s ruling
on it.
Three, testimony that has been excluded or stricken
or that you have been instructed to disregard is
not evidence and must not be considered.
Four, anything you may have seen or heard when
the court was not in session is not evidence. You
are to decide the case solely on the evidence
received at the trial.
Instruction number 6, direct and circumstantial evidence: Evidence may be direct or circumstantial.
Direct evidence is direct proof of a fact, such as

App.33a
testimony by a witness about what that witness
personally saw or heard or did.
Circumstantial evidence is proof of one or more
facts from which you could find another fact. You
could consider both kinds of evidence. The law
makes no distinction between the weight to be
given to either direct or circumstantial evidence.
It is for you to decide how much weight to give to
any evidence. By way of example, if you wake up
in the morning and see that the sidewalk is wet,
you may find from that fact that it rained during
the night.
However, other evidence such as a turned on garden
hose may provide a different explanation for the
presence of water on the sidewalk. Therefore,
before you decide a fact has been proved by circumstantial evidence, you must consider all the evidence
in the light of reason, experience, and common
sense.
As far as the law is concerned, it makes no difference whether evidence is direct or indirect. You
may choose to believe or disbelieve either kind.
Whether it is direct or circumstantial evidence,
you should give every piece of evidence whatever
weight you think it deserves.
Instruction number 7, the party having power to
produce better evidence: You may consider the
ability of each party to provide evidence. If a
party provided weaker evidence when it could
have provided stronger evidence, you may distrust
the weaker evidence.
Instruction number 8, corporations receiving fair
treatment: All parties are equal before the law,

App.34a
and a corporation is entitled to the same fair and
conscientious consideration by you as any party.
Instruction number 9, ruling on objections: There
are Rules of Evidence that control what can be
received into evidence. When a lawyer asked a
question or offered an exhibit into evidence and a
lawyer on the other side thought that it was not
permitted by the Rules of Evidence, that lawyer
may have objected. If I overruled the objection,
the question was answered or the exhibit was
received. If I sustained the objection, the question
was not answered, or the exhibit was not received.
Whenever I sustained an objection to a question,
you must ignore the question and must not guess
what the answer might have been. Sometimes I
may have ordered that evidence be stricken from
the record, and that you disregard or ignore the
evidence. That means that when you are deciding
the case, you must not consider the stricken evidence for any purpose.
Instruction number 10, credibility of witnesses: In
deciding the facts in this case, you may have to
decide which testimony to believe and which testimony not to believe. You may believe everything a
witness says or part of it or none of it.
In considering the testimony of any witness, you
may take into account, and I will now read eight
things: One, the opportunity and ability of the
witness to see or hear or know the things testified
to.
Two, the witness’s memory.
Three, the witness’s manner while testifying.

App.35a
Four, the witness’s interest in the outcome of the
case, if any.
Five, the witness’s bias or prejudice, if any.
Six, whether other evidence contradicted the witness’s testimony.
Seven, the reasonableness of the witness’s testimony in light of all the evidence.
And, eight, any other factors that bear on believability.
Sometimes a witness may say something that is
not consistent with something else he or she said.
Sometimes different witnesses will give different
versions of what happened. People often forget
things or make mistakes in what they remember.
Also, two people may see the same event, but
remember it differently. You may consider these
differences, but do not decide that testimony is
untrue just because it differs from other testimony.
However, if you decide that a witness has deliberately testified untruthfully about something important, you may choose not to believe anything that
witness said. On the other hand, if you think the
witness testified untruthfully about some things,
but told the truth about others, you may accept
the part you think is true and ignore the rest.
The weight of the evidence as to a fact does not
necessarily depend on the number of witnesses
who testify. What is important is how believable
the witnesses were and how much weight you
think their testimony deserves.

App.36a
Instruction number 11, no transcript and the use
of notes: During deliberations, you will not have
a transcript of the trial testimony. Whether or not
you took notes, you should rely on your own
memory of the evidence. Notes are only to assist
your memory. You should not be overly influenced
by your notes or those of other jurors.
Ladies and gentlemen, let me just add something
here. If you really need to have a portion of the
testimony reread, then you can request that by
sending a note out of the jury room. But let me
just tell you, it’s a big deal. It’s not as if there, we
could send in like a rough transcript from Ms.
Diaz’s notes into you. What has to happen is that
you have to come back into court, and the
testimony has to be reread.
And unless you ask for something really narrow
and both sides and I can agree on what you should
hear, then the Court of Appeals expects you to
hear the entire testimony of that witness. So I
don’t want to hide anything from you. You do
have the right to have a portion of the testimony
reread, but I would just urge you not to make that
request lightly, especially since the trial has been
so short. I’m sure between all seven of you, you
will have a good sense as of what the testimony
was.
Instruction number 12, depositions: During the
trial, you received deposition testimony that was
read from the deposition transcript. A deposition
is the testimony of a person taken before trial.
At a deposition, the person is sworn to tell the
truth and is questioned by the attorneys. You
must consider the deposition testimony that was

App.37a
presented to you in the same way as you consider
testimony given in court. Do not place any
significance on the behavior or the tone of voice
on the person who read the questions or answers
in court.
Instruction number 13, expert opinion: You have
heard from Eric Lietzow who testified to opinions
and the reasons for these opinions. This opinion
testimony is allowed because of the education or
experience of this witness. Such opinion testimony
should be judged like any other testimony. You
may accept it or reject it, and give it as much
weight as you think it deserves, considering the
witness’s education and experience, the reason
given for the opinion, and all the other evidence
in the case.
Instruction number 14, charts and summaries:
Certain charts, summaries, and videos not received
in evidence have been shown to you in order to
help explain the contents of books, records, documents, or other evidence in the case. They are not
themselves evidence or proof of any facts. If they
do not correctly reflect the facts or figures shown
by the evidence in the case, you should disregard
these charts, summaries, or videos and determine
the facts from the underlying evidence.
Instruction number 15, evidence in electronic form:
Those exhibits capable of being displayed electronically will be provided to you in that form,
and you will be able to view them in the jury
room. A computer, projector, printer, and accessory equipment will be available to you in the jury
room.

App.38a
Jury instruction number 16, the violation of
California law, the essential elements: California
law requires employers to furnish wage statements to employees, though the law does not require that a wage statement itself be in any particular size, shape, or form. An employer may provide electronic wage statements instead of paper
wage statements, but only if employees have easy
access to the electronic wage statements. Therefore,
in order to prove a violation of California law,
Francisca Guillen must prove on behalf of the
class each of the following elements by a preponderance of the evidence, and I will now read three
elements:
One, having chosen not to receive paper checks
and paper wage statements, employees did not
retain easy access to the electronic wage statements.
Two, Dollar Tree’s failure to provide easy access
was knowing and intentional.
And, three, each class member suffered a resulting injury.
The term, quote, easy access, close quote, does not
have any special legal meaning. You should use
your ordinary understanding of these words.
The term, quote, knowing and intentional, close
quote, does not include an isolated and unintentional payroll error due to a clerical or inadvertent
mistake. You may consider as a relevant factor
whether the employer, prior to an alleged violation, has adopted and is in compliance with a set
of policies, procedures, and practices that fully
comply with the law.

App.39a
As to, quote, injury, close quote, you are not required to determine that Francisca Guillen or
members of the class suffered a physical injury or
money damages. If you find that Francisca
Guillen has proven the other two elements, you
may deem that she and the class were injured.
Instruction number 17, the number of violations:
If you determine that Dollar Tree has violated
California law, then you must calculate the
number of violations for Francisca Guillen and
the class for the period between April 2, 2014, and
August 31, 2017, as reflected in the information
provided in Exhibit 119. Exhibit 119, that was the
long list of transactions with the, you know,
letters on the side.
All right. Ladies and gentlemen, let’s stand up and
stretch for a moment.
[...]

